<html>
<title> - NOMINATIONS OF HON. ANNA BLACKBURNE- RIGSBY, PHYLLIS D. THOMPSON, AND JENNIFER M. ANDERSON</title>
<body><pre>[Senate Hearing 109-907]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-907
 
                  NOMINATIONS OF HON. ANNA BLACKBURNE-
                    RIGSBY, PHYLLIS D. THOMPSON, AND
                          JENNIFER M. ANDERSON
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

 NOMINATIONS OF HON. ANNA BLACKBURNE-RIGSBY AND PHYLLIS D. THOMPSON TO 
    BE ASSOCIATE JUDGES, DISTRICT OF COLUMBIA COURT OF APPEALS, AND 
   JENNIFER M. ANDERSON TO BE ASSOCIATE JUDGE, SUPERIOR COURT OF THE 
                          DISTRICT OF COLUMBIA


                               __________

                             JULY 11, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                      U.S. GOVERNMENT PRINTING OFFICE
30-855 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
                David W. Cole, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
         Adam R. Sedgewick, Minority Professional Staff Member
     Jennifer L. Tyree, Minority Counsel, Oversight of Government 
                              Management,
    the Federal Workforce, and the District of Columbia Subcommittee
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1

                               WITNESSES
                         Tuesday, July 11, 2006

Hon. Eleanor Holmes Norton, a Delegate to Congress from the 
  District of Columbia...........................................     1

Hon. Anna Blackburne-Rigsby to be Associate Judge, District of 
  Columbia Court of Appeals:
    Testimony....................................................     4
    Prepared statement...........................................    13
    Biographical and professional information....................    16

Phyllis D. Thompson to be Associate Judge, District of Columbia 
  Court of Appeals:
    Testimony....................................................     6
    Prepared statement...........................................    44
    Biographical and professional information....................    45

Jennifer M. Anderson to be Associate Judge, Superior Court of the 
  District of Columbia:
    Testimony....................................................     7
    Prepared statement...........................................    64
    Biographical and professional information....................    66

                                APPENDIX

Post-hearing question for Ms. Anderson submitted by Senator 
  Lieberman......................................................    86
Paul Strauss, a U.S. Senator (Shadow) from the District of 
  Columbia, prepared statement...................................    88


                  NOMINATIONS OF HON. ANNA BLACKBURNE-



                    RIGSBY, PHYLLIS D. THOMPSON, AND



                          JENNIFER M. ANDERSON

                              ----------                              


                         TUESDAY, JULY 11, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room 342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, presiding.
    Present: Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning and welcome. Today, the 
Committee on Homeland Security and Governmental Affairs meets 
to consider the nominations of Judge Anna Blackburne-Rigsby of 
the D.C. Superior Court to be an Associate Judge of the 
District of Columbia Court of Appeals, Phyllis Thompson to be 
an Associate Judge of the District of Columbia Court of 
Appeals, and Jennifer Anderson to be an Associate Judge of the 
D.C. Superior Court.
    I know it is an honor to be nominated to serve as a judge. 
This profession carries the significant responsibility to 
protect the rights and liberties of citizens, uphold and 
interpret the law, and resolve disputes peacefully, fairly, and 
effectively. I believe all the three nominees to be well-
qualified for the position to which they have been nominated. I 
look forward to hearing from them today about their 
qualifications for the bench and their reasons for pursuing 
public service.
    But before I do that, I would like to yield for an opening 
statement from Delegate Eleanor Holmes Norton, my good friend 
from the District of Columbia. Delegate Norton, we are very 
happy to welcome you back to this Committee. You are very 
conscientious in your responsibilities to the District, and we 
look forward to hearing from you.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE TO CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much. Mr. Chairman, thank you, 
on behalf of the District of Columbia, for the number of 
matters that you are shepherding through for us, and I bring 
you the gratitude of the people of the District of Columbia for 
your work for us.
    I have a great pleasure to introduce three very well-
qualified candidates today. I won't belabor their extraordinary 
qualifications.
    The first is Associate Judge Anna Blackburne-Rigsby, 
already a Judge on the Superior Court of the District of 
Columbia. She had very extensive experience leading to that 
appointment in the Corporation Counsel's Office as Special 
Counsel to the Corporation Counsel, as the Chief of its Family 
Services Division. She went on to become a Magistrate Judge 
before, and with the selection of this Committee, she became an 
Associate Judge of the Superior Court. She has had extensive 
work with the Bar, including Chair of the Washington Bar 
Association Judicial Counsel, Nominating Chair of the 
Association of Women Judges, and too many others to name. She 
has been an Associate Judge of the Superior Court since 2000.
    She is a graduate of the Howard University Law School, 
where she was Articles Editor of the Howard Law Journal. She is 
a native Washingtonian, though I knew her parents and I knew 
her as a child in New York City when I lived there. She is very 
well qualified to join our D.C. Court of Appeals, in my view, 
and I strongly recommend her to you.
    I am equally honored to recommend Phyllis D. Thompson to 
the D.C. Court of Appeals. Ms. Thompson comes from law 
practice, the first African-American woman to become a partner 
in one of our major law firms, Covington and Burling. She has 
been very active in our Bar, Vice Chair of the D.C. Court of 
Appeals Committee on Bar Admissions, a Bar Examiner, and Vice 
Chair of the D.C. Board of Appeals and Review. She has been a 
member of the Board of Governors of the D.C. Bar and has been 
involved in many other matters involving the Bar and civic 
matters.
    She has been an academic star, a graduate with high honors 
from George Washington University Law School, Order of the 
Coif, Notes Editor of the George Washington Law Review. She has 
an M.A. in religion with a concentration in ethics. She is a 
graduate, 1974, of George Washington University, class 
valedictorian, Phi Beta Kappa, and also a native Washingtonian, 
Mr. Chairman.
    I am very pleased, as well, to introduce another 
distinguished nominee, Jennifer M. Anderson. I am very pleased 
to recommend her. Even though, Ms. Anderson, I think you may 
not have had the good fortune to be born in the District of 
Columbia, I think she was born in Baltimore. It is close 
enough. [Laughter.]
    But she has worked very extensively with us in our U.S. 
Attorney's Office as the Chief of the Felony Section, Chief of 
the Homicide-Major Crimes Section of the Third District, very 
extensive experience there after coming from private practice, 
where she worked in defense work in the civil context. She was 
with Cadwalader and Wickersham here in Washington before coming 
to the U.S. Attorney's Office.
    She won many awards there for outstanding achievement, and 
she comes highly recommended by her peers and the U.S. 
Attorney. She is a graduate of Catholic University Law School 
and Mount St. Mary's College in Maryland. I am pleased to 
recommend her, as well as the other two nominees, to you and 
hope that you will pass them on to the floor of the Senate in 
due course.
    Senator Voinovich. Thank you, Delegate Norton. We really 
appreciate your being here today to introduce these outstanding 
candidates for the judiciary. I understand that you have other 
commitments. Thanks again for being here today.
    Ms. Norton. Thank you.
    Senator Voinovich. I understand that we have several judges 
here, Judge Sullivan, who is Chairman of the D.C. Judicial 
Nomination Commission. Judge Sullivan, would you stand up and 
be recognized for being here. Chief Judge Washington of the 
D.C. Court of Appeals. Judge, nice to see you again. Finally, 
Chief Judge King of the D.C. Superior Court is here. It is very 
nice that you are here today.
    It is the custom of our Committee to have the witnesses 
sworn in, so if you will stand, I am going to administer the 
oath to you. Do you swear this testimony you are about to give 
this Committee is the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Judge Blackburne-Rigsby. I do.
    Ms. Thompson. I do.
    Ms. Anderson. I do.
    Senator Voinovich. Thank you.
    Judge Rigsby, I understand that you have family members 
here today, as well as several of your colleagues. I would like 
to give you an opportunity before you make your statement to 
introduce your family and friends.
    Judge Blackburne-Rigsby. Thank you, Mr. Chairman. It is a 
pleasure to be here this morning with so many of my family 
members, friends, and colleagues. With me today are my husband, 
Judge Robert Rigsby; my son, Julian Christopher Rigsby; my 
parents, Elmer and Laura Blackburne; my sister, Faith 
Blackburne. I am also joined by several of my colleagues on the 
Superior Court bench, Judge Zinora Mitchell-Rankin, Judge Erik 
Christian, Judge Stephanie Duncan-Peters, and from the Court of 
Appeals today, Judge Inez Smith Reid. I also have the privilege 
of having with us today Lieutenant General Daniel James, 
Retired, and Brigadier General Errol Schwartz from the D.C. 
National Guard. And I am joined by many friends and 
distinguished members of the Bar and colleagues who have 
supported me over the years, and I am so pleased that they 
could be here today.
    Senator Voinovich. I know this is a special time for them. 
You have been sitting on one bench and you are now being 
appointed to another bench. I am sure that for all of our 
nominees this is a milestone in your respective careers and a 
special time for your families.
    Judge Blackburne-Rigsby. Thank you.
    Senator Voinovich. If you would like to proceed with your 
statement.

 TESTIMONY OF HON. ANNA BLACKBURNE-RIGSBY,\1\ TO BE ASSOCIATE 
          JUDGE, DISTRICT OF COLUMBIA COURT OF APPEALS

    Judge Blackburne-Rigsby. Thank you, Mr. Chairman and 
Members of the Committee and Committee staff members. I am 
honored to appear before you today. I am grateful and deeply 
humbled by President Bush's nomination of me to serve as a 
Judge on the District of Columbia Court of Appeals.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Blackburne-Rigsby appears in 
the Appendix on page 13.
---------------------------------------------------------------------------
    I would like to express my sincere gratitude for the 
introduction by Delegate Eleanor Holmes Norton and for her 
support of my nomination to this honorable position. I am also 
honored by the presence of Chief Judge Eric Washington of the 
District of Columbia Court of Appeals, Chief Judge Rufus King 
of the Superior Court of the District of Columbia, and Judge 
Emmet Sullivan of the U.S. District Court for the District of 
Columbia, the Chair of the District of Columbia Judicial 
Nomination Commission.
    I would like to take this opportunity again to just say how 
much the support of my family has meant to me throughout this 
process. I am grateful to my husband, Judge Robert Rigsby, for 
his undying love and support and patience. I am grateful to my 
son, Julian Christopher Rigsby, and so proud of him and all of 
his accomplishments.
    I want to say a special thank you to my parents, Elmer and 
Laura Blackburne, who have been role models to me throughout my 
life. Their commitment to this country and to community service 
throughout my childhood and to this day has been a role model 
for me. And my sisters, Dr. Rose Blackburne, who was not able 
to be here today, and Faith Blackburne, have been a support and 
source of love to me.
    As I mentioned, I have the privilege of being joined by 
many friends, family members, judicial colleagues, and other 
distinguished guests, and without all of their support over the 
years, I would not be before you today. With your permission, 
Mr. Chairman, I would just like to ask them to stand and be 
recognized once again, if I might.
    Senator Voinovich. Fine.
    Judge Blackburne-Rigsby. I have a number of family members 
and friends, and they are being shy now, but I would just like 
for them to stand. It means so much to me that they could be 
here with me.
    Senator Voinovich. You certainly brought a great support 
group with you today.
    Judge Blackburne-Rigsby. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you all for being here.
    Judge Blackburne-Rigsby. I was fortunate that my parents 
encouraged my early involvement in the church, political, and 
civic activities. Their encouragement ingrained in me a deep 
commitment to the rule of law and social justice, which has 
been a driving force in both my personal and professional 
development. My parents' influence impressed upon me the 
importance of education, excellence, and public service, which 
led me to pursue undergraduate work at Duke University and law 
school at Howard University. My husband, a decorated U.S. Army 
officer, and I have dedicated our lives to serving our country 
and the citizens of the District of Columbia. My commitment to 
public service has been evidenced through my work with the Bar 
and within the community.
    After graduating from law school, I entered private 
practice at the law firm of Hogan and Hartson here in 
Washington, DC, and gained invaluable professional training 
from the perspective of a large law firm. My appreciation for 
our system of justice was further expanded when I left the 
private sector to join the Office of the Attorney General of 
the District of Columbia, formerly the Office of Corporation 
Counsel, where I gained unique insights into the importance of 
law in the public sector. Working in the public sector 
instilled in me a sense of justice and compassion for my 
community that further inspired my commitment to public 
service.
    In 1995, I was appointed to serve as a Magistrate Judge on 
the Superior Court of the District of Columbia, and as a 
Magistrate Judge, I became intimately familiar with the 
litigants and issues brought before the Superior Court of the 
District of Columbia.
    In 2000, I had the honor of appearing before you, Mr. 
Chairman, and this Committee and was later confirmed to the 
position I now hold on the Superior Court of the District of 
Columbia. As an Associate Judge, I have presided over calenders 
in the Criminal, Civil, and Family Divisions of our court and I 
have strived to provide thoughtful and scholarly decisions for 
the benefit of the parties appearing before me. This 
experience, I believe, would allow me to bring valuable insight 
to the appellate process.
    My love of the law has inspired me to seek teaching 
opportunities, as well, and I had the opportunity and privilege 
to teach a trial advocacy workshop at the Harvard Law School 
and served as an adjunct professor at the David A. Clarke 
School of Law, where I taught professional responsibility.
    Being an Associate Judge requires an individual commitment 
to fairness and the diligent pursuit of justice. Being an 
effective Appellate Judge brings with it the additional 
obligation to work with colleagues to ensure the uniformity of 
the law and its equal application to all. I believe that my 
diverse legal background along with my experience as a 
Magistrate Judge and an Associate Judge of the Superior Court 
of the District of Columbia have prepared me to make a valuable 
contribution to the District of Columbia Court of Appeals, if 
confirmed.
    The President has nominated me to take the seat being 
vacated by Judge Frank Schwelb. I would like to note that I had 
the privilege of sitting by designation with Judge Schwelb. I 
admire and greatly respect all of the judges of the District of 
Columbia Court of Appeals. Should I be confirmed, I hope to 
serve as ably as the judges currently serving on the court.
    Thank you, Mr. Chairman and Members of the Committee, for 
this opportunity to appear before you, and I would be pleased 
to answer any questions.
    Senator Voinovich. Thank you, Judge Rigsby. Ms. Thompson.

  TESTIMONY OF PHYLLIS D. THOMPSON,\1\ TO BE ASSOCIATE JUDGE, 
             DISTRICT OF COLUMBIA COURT OF APPEALS

    Ms. Thompson. Good morning, Mr. Chairman. Thank you for the 
opportunity to introduce my family members and friends who are 
here today. With me today are my daughters, Emily Famutimi and 
Elinor Famutimi. They are here, and I hope they will stand. 
Emily just graduated from the Harvard Law School and is 
studying for the Bar, and it is a great sacrifice that she has 
made coming today. I appreciate it. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thompson appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    Senator Voinovich. You bet it is.
    Ms. Thompson. Elinor is a student at New York University, 
and I am very proud of both of them.
    I also have with me my brother, the Reverend Wayne 
Thompson, my sister, the Reverend Wanda Thompson, my cousin, 
Emma Johnson, and our very close family friend, the Reverend 
Roy Settles.
    Senator Voinovich. Welcome.
    Ms. Thompson. I also have with me here today my law 
partners and friends, Carolyn Corwin, Joanne Grossman, and 
Thomas Williamson, and I thank them very much for coming today. 
I hope they will stand, as well. And also my very able 
assistant, Karen Baxter, whom I haven't seen but I think is in 
the room.
    Senator Voinovich. She is back there.
    Ms. Thompson. And I would also like to acknowledge the 
presence of the Hon. Emmet Sullivan, who is the Chair of the 
D.C. Judicial Nomination Commission, who has worked so hard to 
identify judicial nominees. I appreciate him being here today. 
Also here is Dean Alfreda Robinson from the National Bar 
Association, and I appreciate her coming today, as well.
    Senator Voinovich. I want to thank all of you for being 
here today. Judge Sullivan, we appreciate all the hard work 
that you do. I am very much impressed by the candidates that 
have come before this Committee. Thank you.
    Ms. Thompson. Shall I proceed with my opening statement, 
Mr. Chairman?
    Senator Voinovich. You should proceed, yes.
    Ms. Thompson. Thank you. I am grateful for this opportunity 
to appear before the Committee today. I want to thank President 
Bush for having nominated me to serve on the District of 
Columbia Court of Appeals. I am deeply honored to have been 
selected for this high position.
    I also thank the Committee for holding this hearing today 
during this very busy period and thank Representative Norton 
for her kind introduction. The Committee staff have been 
extremely helpful to all of us in navigating the confirmation 
process, and I know that they have worked diligently in 
collecting and reviewing and helping the Senators to review the 
information pertinent to the Committee's consideration of my 
nomination. I very much appreciate their work, and I want 
particularly to thank Ms. Jennifer Hemingway for her kind 
assistance and courtesy.
    Let me also express my gratitude to my family for their 
constant love and support, and especially to my mother, Juanita 
Thompson, who was unable to be here today but who has supported 
me all my life and made this possible for me.
    A big thank you to my professional colleagues, especially 
my colleagues at the law firm of Covington and Burling, from 
whom I have learned so much over the course of my career, for 
making it possible for me to do the array of work that has 
helped to prepare me for the position for which I have been 
nominated.
    And my thanks also to the D.C. Judicial Nomination 
Commission for the tremendous time and hard work that they 
devote to identifying candidates for judicial positions in the 
District and for their confidence in me.
    I would also like to say thank you to Chief Judge 
Washington and to the other judges on the D.C. Court of Appeals 
who, one by one, have sent me kind messages of support and 
encouragement since my nomination. I feel quite privileged at 
the possibility of joining such a fine group of judges.
    I would welcome the opportunity, Mr. Chairman, to be a 
public servant for my native District of Columbia by serving as 
a Judge on the D.C. Court of Appeals. I pledge that, if 
confirmed, I will apply my skills energetically and diligently 
to help advance the work of the court. I also pledge that, if 
confirmed, I will treat all litigants with courtesy, respect, 
and fairness and that I will approach all matters with the 
impartiality and thoughtful deliberation that are necessary to 
maintain the public's faith in and respect for this high 
institution.
    Thank you again for the chance to be here today and for 
your consideration of my nomination. I welcome any questions 
that the Committee may have, and I will do my best to answer 
them. Thank you.
    Senator Voinovich. Thank you very much. Ms. Anderson, would 
you like to introduce your friends and family?

 TESTIMONY OF JENNIFER M. ANDERSON,\1\ TO BE ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Anderson. Thank you, Mr. Chairman. I am honored today 
to have my parents, Frank and Brid Anderson; my sisters, 
Colleen and Noreen; and my brother, Dermot, his wife, Karen, 
and their daughter, Lena. If they could stand. Lena was hoping 
that she would get to see President Bush today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Anderson appears in the Appendix 
on page 64.
---------------------------------------------------------------------------
    Senator Voinovich. Sorry, he is not coming. [Laughter.]
    Ms. Anderson. Hope springs eternal.
    I am also honored to be joined today by the U.S. Attorney 
for the District of Columbia, Ken Wainstein, who has been very 
supportive to me during this process, and I would like to 
recognize him and my longtime friend and colleague from the 
U.S. Attorney's Office, Mary Pat Brown.
    I would also like to recognize a number of my friends and 
colleagues from the U.S. Attorney's Office and the Metropolitan 
Police Department and the FBI who have come here today to 
support me. They are all individuals that I have worked with 
over the past 15 years during my tenure at the U.S. Attorney's 
Office, and in particular in the last 10 years while I have 
been doing homicides and have been very helpful and supportive 
to me during that time.
    Senator Voinovich. Thank you all for being here.
    Ms. Anderson. It is a great honor to appear before you 
today, Senator, and I wish to thank Delegate Holmes Norton for 
her very kind remarks.
    More than 35 years ago, my parents packed up their five 
children and moved 3,000 miles across the ocean from Dublin, 
Ireland. They did so because they wanted to provide their 
children with the opportunities that they themselves did not 
have and which they believed existed in this country. In 
looking back, that move was not an easy one, and I think my 
parents made many sacrifices so that their children could have 
a better life.
    I clearly have benefitted from those sacrifices, and it is 
somewhat amazing to find myself sitting before you today, 
having been nominated by the President of the United States for 
an Associate Judge of the Superior Court of the District of 
Columbia. I would like to thank President Bush for giving me 
what I see as a wonderful opportunity by nominating me for this 
position.
    Having practiced criminal law for the last 15 years in the 
Superior Court, I have a great affinity for the court, and I 
hope that I can make a substantial contribution if I am 
fortunate enough to be confirmed.
    I would like to thank the Senate staff of the Committee on 
Homeland Security and Governmental Affairs for their work, and 
in particular, I, too, would like to recognize Jennifer 
Hemingway, who has been very helpful and very gracious to me 
during this process. I would also like to thank White House 
Counsel John Smith, who is present today and who has also been 
very helpful.
    It is a great honor to be here. Having litigated for the 
last 15 years, I recognize the worth of brevity and so I would 
wrap up my remarks saying that I am happy to be here and happy 
to answer any questions that you have.
    Senator Voinovich. Thank you very much.
    There are three questions that the Committee asks all of 
our nominees. I would like each of you to respond after I have 
asked the question.
    First, is there anything that you are aware of in your 
background that might conflict or present a conflict of 
interest with the duties of the office to which you have been 
nominated?
    Judge Blackburne-Rigsby. No, Mr. Chairman.
    Ms. Thompson. No, Mr. Chairman.
    Ms. Anderson. No, Mr. Chairman.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Judge Blackburne-Rigsby. No, Mr. Chairman, I do not.
    Ms. Thompson. No, Mr. Chairman, I do not.
    Ms. Anderson. No, Mr. Chairman.
    Senator Voinovich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Judge Blackburne-Rigsby. No, Mr. Chairman.
    Ms. Thompson. No, Mr. Chairman.
    Ms. Anderson. No, Mr. Chairman.
    Senator Voinovich. I would be very interested in knowing 
how you became aware of this judgeship. Ms. Rigsby, you are on 
the Superior Court and have experience, but was there an 
opening published and you indicated you were interested, or how 
did it work? I mean, you are on the inside. Maybe that is why 
you have so many people here today. [Laughter.]
    Judge Blackburne-Rigsby. When there is a vacancy created on 
either the Court of Appeals for the District of Columbia or the 
Superior Court, the Judicial Nominations Commission publishes 
an announcement in a number of the local legal publications. 
But the court is a close-knit community, both the Associate 
Judges on the Superior Court and on the Court of Appeals, and 
many of them are colleagues and have been friends for many 
years working together. I was encouraged by some of my 
colleagues to consider applying for the Court of Appeals.
    Senator Voinovich. Judge Blackburne-Rigsby, why are you 
interested in serving on the Court of Appeals? You are going to 
be moving out of the trial court and going to appeals. What 
particularly was the main reason for making this change?
    Judge Blackburne-Rigsby. Thank you for that question, Mr. 
Chairman, because I have given it a lot of thought. I served at 
the Superior Court level for 10 years, 5 years as a magistrate 
and the last 5 years as an Associate Judge, and I have loved 
the trial court. But I also enjoy and have taken many 
opportunities to write opinions as a trial court judge, and I 
enjoy that process. The opportunity to serve on the Court of 
Appeals, which is our highest court, and makes--and interprets 
the law--not makes the law, that is your job, Mr. Chairman--
interprets the law----
    Senator Voinovich. I hope that is the way you see it. 
[Laughter.]
    Judge Blackburne-Rigsby [continuing]. For the District of 
Columbia, and has oversight over our Bar, which is a 
distinguished Bar, is an opportunity that I would welcome and 
be honored to serve in that capacity, if confirmed.
    Senator Voinovich. In other words, you have had the 
experience on the trial level and have enjoyed writing opinions 
and believe that is where you could make a better contribution 
than perhaps you are making right now?
    Judge Blackburne-Rigsby. I think so, and I believe that the 
experience at the trial court level would allow me to bring an 
important perspective to the appellate process, having seen it 
at both levels of the trial court. The magistrate judges here 
dispose of many cases that never reach the Associate Judges on 
the Superior Court, and so having had both of those 
perspectives, I think, would allow me to bring some unique 
insights into the appellate process.
    Senator Voinovich. Ms. Thompson, you have been associated 
with a distinguished law firm here in town and became a 
partner. I suspect that you are making a lot more money than 
you are going to make. [Laughter.]
    But you have had no judicial experience. Why is it that you 
feel you want to serve on the Court of Appeals.
    Ms. Thompson. Thank you for that question, Senator. I do 
very much want to do this job. I have always thought throughout 
my career----
    Senator Voinovich. And you noticed the publication and then 
you submitted an application.
    Ms. Thompson. That is correct. I actually saw a notice in 
the Daily Washington Law Reporter, I believe, a few years ago 
when I first applied for a position. What caused me to do it, 
frankly, is that I had been working for a body known as the 
D.C. Board of Appeals and Review. This was a volunteer body 
that functioned as a sort of intermediate level court of 
appeals for the District. The members were appointed by the 
Mayor, and we heard appeals from a variety of decisions by 
administrative law judges in the city and various civil 
infraction-type cases, and we also conducted hearings in a 
number of matters such as licensing matters. In that capacity--
I was Vice Chair of the Board of Appeals and Review--I wrote 
many appellate----
    Senator Voinovich. Was this pro bono?
    Ms. Thompson. It was, and that is in part why I thanked the 
members of my law firm, my professional colleagues, for giving 
me that opportunity because I did do it as pro bono work. I 
spent many hours doing it, and I wrote many appellate-type 
opinions, and I realized that I finally knew what I wanted to 
do when I grew up, actually---- [Laughter.]
    Ms. Thompson [continuing]. Because I enjoyed doing it so 
much. I think that is actually my greatest strength as a 
lawyer, the ability to analyze and read and write and do 
written analysis and the kinds of opinions that appellate 
judges write. And I had always wanted sometime during the 
course of my career to do government service for my native 
District of Columbia, and those things came together, and I did 
suddenly know what I wanted to do.
    Throughout my career at Covington and Burling, I have done 
work for State Government agencies, and in many respects, I 
have always felt like I was working for local government and 
enjoyed it very much. But in this capacity, I could really do 
that.
    And you are right. I will take a pay cut, but I am willing 
to do it.
    Senator Voinovich. Ms. Anderson, you have had extensive 
experience in the U.S. Attorney's Office. What is it that makes 
the Superior Court attractive to you?
    Ms. Anderson. Well, I think that----
    Senator Voinovich. Did you want to be a Judge when you 
started your legal career?
    Ms. Anderson. No, Senator. Actually, when--I came to the 
U.S. Attorney's Office from a large law firm and, I think like 
many people, planned to get some good solid trial experience 
and then go back to my very well-paying law firm job and found 
instead that I absolutely loved the U.S. Attorney's Office job 
and kind of loved the satisfaction of working in public 
service. And so instead of staying there the 3 or 4 years that 
I thought I would be, it has been 15\1/2\ years.
    I have, over the years, realized that is where I wanted to 
spend my time in public service, and I believe that my time at 
the U.S. Attorney's Office--I have done a wide range of crimes 
from the most simple to the last 10 years where I have really 
been focused on the most serious local crime, that of 
homicides--has given me a kind of a great insight into the city 
and into the court.
    Senator Voinovich. So you spend a lot of time in the court?
    Ms. Anderson. Yes, I do, and I still try--I have been a 
supervisor for the last 5 years, but I still try cases. I have 
tried two homicide cases this year. So I think I have a very 
good sense of the court and what an impact that the court can 
make in many different ways, and I think the impact that one 
can make as a Judge is far greater than the impact that you can 
make as a prosecutor or a defense lawyer, and so that is why I 
applied.
    Senator Voinovich. Over the years you have had a chance to 
experience many different judges, haven't you----
    Ms. Anderson. I have, Senator.
    Senator Voinovich [continuing]. At the Superior Court. I am 
not trying to put you on the spot, but---- [Laughter.]
    What particular attributes do you hold high in terms of the 
judges that you have had to appear before? What are the things 
that really stand out that you have thought to yourself, if I 
ever get a chance to sit there, I am going to do that?
    Ms. Anderson. I have actually given a lot of thought to 
that question, Mr. Chairman, and I have had the opportunity to 
appear in Superior Court in front of a wide range of judges, 
and also in the U.S. District Court. I think, predominately, it 
is important that a Judge be fair, that it be very clear that 
the Judge is evaluating the facts and making a decision based 
on the facts and the applicable law. I also think that it is 
critical that a Judge have a good demeanor, I think which can 
be very difficult sometimes in Superior Court because it is a 
very tough environment and it doesn't always run smoothly. But 
I think it is critical that a Judge treat the parties with 
respect and dignity.
    And I also think that it is very important that a good 
Judge in Superior Court is a good case manager because the 
crush of cases in that court, as I am sure you know, is very 
high, and I think the good judges are ones who keep the 
parties' feet to the fire, recognize the need for continuances, 
if necessary, but also recognize stalling when they see it on 
either side and push forward and quickly decide issues.
    I also think that it is critical that a good Judge be 
decisive and hopefully know the law. I think my experience with 
the U.S. Attorney's Office gives me a very good grounding in 
criminal law in particular. But I do think that as a litigant, 
I love to appear in front of a Judge that can rule quickly.
    Senator Voinovich. Thank you. I suspect that your immigrant 
parents are very proud of you.
    Ms. Anderson. They most certainly are, Mr. Chairman.
    Senator Voinovich. I suspect they also encouraged you to 
work hard in school.
    Ms. Anderson. Yes. I think they believed--I think they 
raised all of us children with a very good work ethic, and I 
think we all felt growing up that we had been given this 
wonderful opportunity, that they had made a lot of sacrifices 
to come to this country. I think when you are smaller, you 
don't have any sense of appreciation of that, but as you grow 
older and the idea of picking up your roots and moving, and we 
had no family in this country to speak of, I think as you get 
older, you appreciate that, and I very much appreciate what 
they did.
    Senator Voinovich. It is an amazing thing. All of you in 
your own rights have stories to say what a wonderful country we 
have. My grandparents on both sides were born overseas. My 
father was an orphan, so I never did get to know his parents, 
but I did get to know my mother's parents. So often when I 
leave the Senate and walk down the steps--I like to walk up and 
down those steps to the Senate. It is like going up to an 
altar. [Laughter.]
    But when I come down, I look up at Freedom, and I pinch 
myself to think what a great country we live in. This is 
terrific.
    So I congratulate all of you on your respective careers. 
You are all distinguished individuals and should feel very 
proud of what you have accomplished. All of you, I know, could 
make more money in the private sector than you can in public 
service, but I think that the opportunity to make a difference 
in other people's lives is something very important. You can't 
be compensated for that. That is part of the thing I have 
enjoyed about my career in government. Next year, it will be 40 
years for me. So I thank you for being willing to serve the 
District and to serve your country.
    We will do everything that we can to move your nominations 
along.
    I have really enjoyed listening to you today.
    Judge Blackburne-Rigsby. Thank you, Mr. Chairman.
    Ms. Thompson. Thank you, Mr. Chairman.
    Ms. Anderson. Thank you.
    Senator Voinovich. Thank you very much. This hearing is 
adjourned.
    [Whereupon, at 10:45 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 30855.001

[GRAPHIC] [TIFF OMITTED] 30855.002

[GRAPHIC] [TIFF OMITTED] 30855.003

[GRAPHIC] [TIFF OMITTED] 30855.004

[GRAPHIC] [TIFF OMITTED] 30855.005

[GRAPHIC] [TIFF OMITTED] 30855.006

[GRAPHIC] [TIFF OMITTED] 30855.007

[GRAPHIC] [TIFF OMITTED] 30855.008

[GRAPHIC] [TIFF OMITTED] 30855.009

[GRAPHIC] [TIFF OMITTED] 30855.010

[GRAPHIC] [TIFF OMITTED] 30855.011

[GRAPHIC] [TIFF OMITTED] 30855.012

[GRAPHIC] [TIFF OMITTED] 30855.013

[GRAPHIC] [TIFF OMITTED] 30855.014

[GRAPHIC] [TIFF OMITTED] 30855.015

[GRAPHIC] [TIFF OMITTED] 30855.016

[GRAPHIC] [TIFF OMITTED] 30855.017

[GRAPHIC] [TIFF OMITTED] 30855.018

[GRAPHIC] [TIFF OMITTED] 30855.019

[GRAPHIC] [TIFF OMITTED] 30855.020

[GRAPHIC] [TIFF OMITTED] 30855.021

[GRAPHIC] [TIFF OMITTED] 30855.022

[GRAPHIC] [TIFF OMITTED] 30855.023

[GRAPHIC] [TIFF OMITTED] 30855.024

[GRAPHIC] [TIFF OMITTED] 30855.025

[GRAPHIC] [TIFF OMITTED] 30855.026

[GRAPHIC] [TIFF OMITTED] 30855.027

[GRAPHIC] [TIFF OMITTED] 30855.028

[GRAPHIC] [TIFF OMITTED] 30855.029

[GRAPHIC] [TIFF OMITTED] 30855.030

[GRAPHIC] [TIFF OMITTED] 30855.031

[GRAPHIC] [TIFF OMITTED] 30855.032

[GRAPHIC] [TIFF OMITTED] 30855.033

[GRAPHIC] [TIFF OMITTED] 30855.034

[GRAPHIC] [TIFF OMITTED] 30855.035

[GRAPHIC] [TIFF OMITTED] 30855.036

[GRAPHIC] [TIFF OMITTED] 30855.037

[GRAPHIC] [TIFF OMITTED] 30855.038

[GRAPHIC] [TIFF OMITTED] 30855.039

[GRAPHIC] [TIFF OMITTED] 30855.040

[GRAPHIC] [TIFF OMITTED] 30855.041

[GRAPHIC] [TIFF OMITTED] 30855.042

[GRAPHIC] [TIFF OMITTED] 30855.043

[GRAPHIC] [TIFF OMITTED] 30855.044

[GRAPHIC] [TIFF OMITTED] 30855.045

[GRAPHIC] [TIFF OMITTED] 30855.046

[GRAPHIC] [TIFF OMITTED] 30855.047

[GRAPHIC] [TIFF OMITTED] 30855.048

[GRAPHIC] [TIFF OMITTED] 30855.049

[GRAPHIC] [TIFF OMITTED] 30855.050

[GRAPHIC] [TIFF OMITTED] 30855.051

[GRAPHIC] [TIFF OMITTED] 30855.052

[GRAPHIC] [TIFF OMITTED] 30855.053

[GRAPHIC] [TIFF OMITTED] 30855.054

[GRAPHIC] [TIFF OMITTED] 30855.055

[GRAPHIC] [TIFF OMITTED] 30855.056

[GRAPHIC] [TIFF OMITTED] 30855.057

[GRAPHIC] [TIFF OMITTED] 30855.058

[GRAPHIC] [TIFF OMITTED] 30855.059

[GRAPHIC] [TIFF OMITTED] 30855.060

[GRAPHIC] [TIFF OMITTED] 30855.061

[GRAPHIC] [TIFF OMITTED] 30855.062

[GRAPHIC] [TIFF OMITTED] 30855.063

[GRAPHIC] [TIFF OMITTED] 30855.064

[GRAPHIC] [TIFF OMITTED] 30855.065

[GRAPHIC] [TIFF OMITTED] 30855.066

[GRAPHIC] [TIFF OMITTED] 30855.067

[GRAPHIC] [TIFF OMITTED] 30855.068

[GRAPHIC] [TIFF OMITTED] 30855.069

[GRAPHIC] [TIFF OMITTED] 30855.070

[GRAPHIC] [TIFF OMITTED] 30855.071

[GRAPHIC] [TIFF OMITTED] 30855.072

[GRAPHIC] [TIFF OMITTED] 30855.073

[GRAPHIC] [TIFF OMITTED] 30855.074

[GRAPHIC] [TIFF OMITTED] 30855.075

[GRAPHIC] [TIFF OMITTED] 30855.076

[GRAPHIC] [TIFF OMITTED] 30855.077

[GRAPHIC] [TIFF OMITTED] 30855.078

                                 <all>

</pre></body></html>
